No.
IN THE SUPREME COURT OF THE UNITED STATES

DEAFUEH MONBO
Petitioner
vs.

Eric J. Blair
Respondent
PROOF OF SERVICE
I, b&frMjy
, do swear or declare that on this date,
, 2021 ,
as required by Supreme Court Rule 29, I have served the enclosed MOTION EOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
James Logan, Susan Mays and Richard Hackerman
James R. Logan P. A.
2419 Maryland A venue
Baltimore, MD 21218
James Logan, PA

I declare under penalty of perjury that the foregoing is true and correct
Executed on

,2021
(Signature)

21

n>

